C'OCKLE

2311 Douglas Street i E-Mail Address:
Omaha, Nebraska 68102-1214 L € 8 a 1 B pie f s contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No, 19-975

CENTER FOR BIOLOGICAL DIVERSITY, ANIMAL
LEGAL DEFENSE FUND, DEFENDERS OF WILDLIFE,
AND SOUTHWEST ENVIRONMENTAL CENTER,

Petitioners,

v.

U.S. DEPARTMENT OF HOMELAND SECURITY
AND CHAD WOLF, ACTING SECRETARY OF THE
U.S. DEPARTMENT OF HOMELAND SECURITY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the Sth day of March, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE NORTH AMERICAN BUTTERFLY
ASSOCIATION AND NATIONAL BUTTERFLY CENTER IN SUPPORT OF PETITIONERS in the above entitled case. All
parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
KATHERINE A. MEYER
Director
HARVARD ANIMAL LAW AND

POLICY CLINIC

1607 Massachusetts Avenue
Cambridge, MA 02138
(617) 496-5145
kmeyer@law.harvard.edu
Counsel of Record

Subscribed and sworn to before me this Sth day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

ferrmeetn| Kove 0. Lose? Ondiarh, he
My Comm. Exp. September 8, 2022 we
Notary Public

Affiant 39518

 
SERVICE LIST

A. Jean Su

Counsel of Record
Eric R. Glitzenstein
Brian P. Segee
Center For Biological Diversity
1411 K Street NW, Suite 1300
Washington, DC 20005
(202) 849-8399
jsu@biologicaldiversity.org
Counsel for Petitioners

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov

Counsel for Respondents
